Audit Report
Return
to the USDOJ/OIG Home Page
The Federal Witness Security Program Criminal Division (redacted version)
Report No. 02-05
January 2002
Office of the Inspector General
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
PROGRAM MANAGEMENT
Background
Evaluation of the Admission Process
Evaluation of the Termination Process
Historical Weaknesses in Collecting and Reporting Data
Accuracy of Data Compiled by the OEO
Cooperation of the AUSAs in Providing Data
Upgrade to the OEO Information Tracking System
Compliance with the Government Performance and Results Act (GPRA)
Recommendations
APPENDIX ISTATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX IISTATEMENT ON MANAGEMENT CONTROLS
APPENDIX IIIOBJECTIVES, SCOPE, AND METHODOLOGY
APPENDIX IVFLOWCHART OF ADMISSION PROCEDURES FOR RELOCATED WITNESSES
[Not Available-Sensitive Information Deleted]
APPENDIX VFLOWCHART OF ADMISSION PROCEDURES FOR PRISONER WITNESSES
[Not Available-Sensitive Information Deleted]
APPENDIX VIDETAILED INFORMATION INCLUDED ON WITNESS PROFILE SHEETS
APPENDIX VIIGLOSSARY OF ABBREVIATIONS AND ACRONYMS
APPENDIX VIIICRIMINAL DIVISION RESPONSE TO THE	DRAFT REPORT
APPENDIX IXOIG, AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT